fr.j

u

Case No.
IN THE SUPREME COURT OF THE UNITED STATES
STEPHEN MARK MCDANIEL,
Petitioner-Appellant,
v.
EDWARD PHILBIN, Warden
Respondent-Appellee.

PROOF OF SERVICE
I, Stephen Mark McDaniel, do swear or declare that on this date,

Moiu 3rd

b

_, 2021, a required by Supreme Court Rule 29 I have served the

enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them and with firstclass postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3
calendar days.

1

The names and addresses of those served are as follows:
Daniel W. Hamilton
429 Walker Street, Upper Level
Augusta, GA 30901
I declare under penalty of peijury that the foregoing is true and correct.
Executed on

Mq>u^ 3rd

., 2021

(2~

